                                                                                COUNTERTERRORISM
                                                                            COUNTERTERRORISM

                                                                         Executive
                                                                                              ASSISTANT
                                                                           Staff




            OPS I                                               OPS II




                                             WMD
ITOS I                 ITOS II                                    CXS                 TFOS
                                             DTOS


            ETIU                  Global            Domestic             Document             Radical
                                    Op              Terrorism               Exp                Fund
                                   Unit             Ops Unit               Unit                Unit I

          CONUS I                Palestine           WMD                   Com                Radical
                                    Rej          Unconv Threats           Analysis             Fund
                                   Unit             Ops Unit               Unit               Unit II

          CONUS II                 Iran               WMD                  Elect              Global
                                 Hizballah          Counter-               Com               Extremist
                                   Unit           Measures Unit            Unit

         CONUS III                 Iraq               WMD                    CT              Financial
                                  Syria                IT                Elsur Ops             Intel
                                  Lybia               Unit                  Unit

         CONUS IV                                    Special                                  Program
                                                     Events                                 Coordiantion
                                                      Unit                                 and Managment

          Arabian                                                                          Proactive Data
         Peninsula                                                                          Exploitation
                                                                                                Unit

            CT
          Humint
         Operations


         Stand Alone      RFU Team         Domestic Team     Global Extremist        WMD



                                                      B-4
DIVISION
 DIVISION

 DIRECTOR

                                                                                                     TSC


                                                                 Operations
             Analytical
                                                                  Support                          FTTTF




    CT                                                                                  Threat
                                               Admin                 Response
  Analysis                 TRRS                                                         Center
                                               Section                Section
  Section                                                                               Section

             Domestic               Radical         Admin Mngt &             Military                CT
              Sunni                  Fund             Secuirty                Liaison               Watch
                                      DU                Unit               Detainee Unit

               Shia                Global ME        Budget Coord                NJTTF               TWWU
               ME                  Expremist          & Supply
                                      DU                Unit

             Foreign                 WMD              Cont Edu                   Fly               Threat
              Links               Domestic DU        Prof Develop               Team               Monit
              Global                                     Unit                                       Unit

            Domestic               Financial        Asset Vetting                               Public
            Terrorism               DOCEX              Review                                Access Center
           Analysis Unit              DU                Unit                                     Unit

               WMD                                         CTD                                      Threat
               ETIU                                      Detailees                                Resolution
                                                                                                     Unit

                                                                                                  Terrorist
                                                                                                   SC Ops
                                                                                                    Unit




                                                                                           7 JAN 2005




                                                         B-5
